<html>
<title> - PERSPECTIVES ON THE LIVABLE COMMUNITIES ACT OF 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                      PERSPECTIVES ON THE LIVABLE
                        COMMUNITIES ACT OF 2010

=======================================================================

                                HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 23, 2010

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 111-157




                  U.S. GOVERNMENT PRINTING OFFICE
62-682                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f99e8996b99a8c8a8d919c9589d79a9694d7">[email&#160;protected]</a>  

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 BARNEY FRANK, Massachusetts, Chairman

PAUL E. KANJORSKI, Pennsylvania      SPENCER BACHUS, Alabama
MAXINE WATERS, California            MICHAEL N. CASTLE, Delaware
CAROLYN B. MALONEY, New York         PETER T. KING, New York
LUIS V. GUTIERREZ, Illinois          EDWARD R. ROYCE, California
NYDIA M. VELAZQUEZ, New York         FRANK D. LUCAS, Oklahoma
MELVIN L. WATT, North Carolina       RON PAUL, Texas
GARY L. ACKERMAN, New York           DONALD A. MANZULLO, Illinois
BRAD SHERMAN, California             WALTER B. JONES, Jr., North 
GREGORY W. MEEKS, New York               Carolina
DENNIS MOORE, Kansas                 JUDY BIGGERT, Illinois
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
RUBEN HINOJOSA, Texas                SHELLEY MOORE CAPITO, West 
WM. LACY CLAY, Missouri                  Virginia
CAROLYN McCARTHY, New York           JEB HENSARLING, Texas
JOE BACA, California                 SCOTT GARRETT, New Jersey
STEPHEN F. LYNCH, Massachusetts      J. GRESHAM BARRETT, South Carolina
BRAD MILLER, North Carolina          JIM GERLACH, Pennsylvania
DAVID SCOTT, Georgia                 RANDY NEUGEBAUER, Texas
AL GREEN, Texas                      TOM PRICE, Georgia
EMANUEL CLEAVER, Missouri            PATRICK T. McHENRY, North Carolina
MELISSA L. BEAN, Illinois            JOHN CAMPBELL, California
GWEN MOORE, Wisconsin                ADAM PUTNAM, Florida
PAUL W. HODES, New Hampshire         MICHELE BACHMANN, Minnesota
KEITH ELLISON, Minnesota             KENNY MARCHANT, Texas
RON KLEIN, Florida                   THADDEUS G. McCOTTER, Michigan
CHARLES A. WILSON, Ohio              KEVIN McCARTHY, California
ED PERLMUTTER, Colorado              BILL POSEY, Florida
JOE DONNELLY, Indiana                LYNN JENKINS, Kansas
BILL FOSTER, Illinois                CHRISTOPHER LEE, New York
ANDRE CARSON, Indiana                ERIK PAULSEN, Minnesota
JACKIE SPEIER, California            LEONARD LANCE, New Jersey
TRAVIS CHILDERS, Mississippi
WALT MINNICK, Idaho
JOHN ADLER, New Jersey
MARY JO KILROY, Ohio
STEVE DRIEHAUS, Ohio
SUZANNE KOSMAS, Florida
ALAN GRAYSON, Florida
JIM HIMES, Connecticut
GARY PETERS, Michigan
DAN MAFFEI, New York

        Jeanne M. Roslanowick, Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    September 23, 2010...........................................     1
Appendix:
    September 23, 2010...........................................    21

                               WITNESSES
                      Thursday, September 23, 2010

Abariotes, Andriana, Executive Director, Twin Cities Local 
  Initiative Support Corporation (LISC)..........................    10
Blumenauer, Hon. Earl, a Representative in Congress from the 
  State of Oregon................................................     1
Gouge, Julia W., President, Board of County Commissioners, 
  Carroll County, Maryland.......................................    12
Knight, Bruce A., Planning Director, City of Champaign, Illinois, 
  and President, American Planning Association (APA).............    14
Murphy, Hon. Bob, Mayor, City of Lakewood, Colorado..............     8
Sires, Hon. Albio, a Representative in Congress from the State of 
  New Jersey.....................................................     3

                                APPENDIX

Prepared statements:
    Sires, Hon. Albio............................................    22
    Abariotes, Andriana..........................................    24
    Gouge, Julia W...............................................    30
    Knight, Bruce A..............................................    39
    Murphy, Hon. Bob.............................................    51

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Written statement of the National Association of Home 
      Builders (NAHB)............................................    54
Perlmutter, Hon. Ed:
    Written statement of the National Center for Healthy Housing.    58
Gouge, Julia W.:
    Additional information submitted for the record..............    61
    Written responses to questions submitted by Representative 
      Miller.....................................................    62


                      PERSPECTIVES ON THE LIVABLE
                        COMMUNITIES ACT OF 2010

                              ----------                              


                      Thursday, September 23, 2010

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 2:30 p.m., in 
room 2128, Rayburn House Office Building, Hon. Ed Perlmutter 
presiding.
    Members present: Representatives Moore of Kansas, Green, 
Perlmutter; Capito, Hensarling, Jenkins, Paulsen, and Lance.
    Mr. Perlmutter. [presiding] This hearing of the Committee 
on Financial Services will come to order.
    Without objection, all members' opening statements will be 
made a part of the record.
    Mrs. Capito and I have just discussed how we want to 
proceed, because we have a number of votes coming up on the 
Floor. What we would like to do is have our first panel--Mr. 
Blumenauer and Mr. Sires--make their statements for the record. 
Then Mrs. Capito and I, if there is time before the votes are 
called, will make our opening statements.
    Then I think we will have to take a break for the Floor 
votes that we have, and I apologize to everybody who is in 
attendance, because there will be about six of them, so it will 
take some time. Then, we will reconvene for the testimony of 
the second panel.
    So, with that, without objection, your written statements 
will be made a part of the record. You will each be recognized 
for a 5-minute summary of your testimony.
    Congressman Blumenauer, if you would proceed.

STATEMENT OF THE HONORABLE EARL BLUMENAUER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Blumenauer. Thank you very much, Mr. Chairman, and Mrs. 
Capito. I appreciate the opportunity to testify in support of 
H.R. 4690, the Livable Communities Act. I appreciate the 
attention your committee is giving this critical issue and I 
look forward to working with committee members to move the 
legislation as quickly as possible.
    Mr. Chairman, I appreciate your particular work in 
introducing this legislation, which will improve the quality of 
life for communities large and small across the country.
    I have done a lot of work over the years on livable 
communities, working with urban, suburban, and rural 
communities in all parts of the United States, and I have found 
that these issues are generally widely accepted as being vital 
for American families, for where those families live, how they 
get around, whether their children can walk or bicycle to 
school safely, whether older members of a family can continue 
not just to live, but to thrive in their neighborhoods.
    These communities seek not just assistance and resources 
from the Federal Government on these issues, but in many cases, 
they would actually like the Federal Government to maybe get 
out of the way a little bit and let them move forward.
    This legislation will help on both counts. The Livable 
Communities Act establishes a grant program to help communities 
develop comprehensive plans that coordinate land use, housing, 
transportation, and infrastructure planning so that they can 
grow the way they want to grow. It does not dictate any 
specific plan, or tell communities how to plan, but it does 
provide important resources and a framework.
    Communities need funding, research, and sometimes they need 
ideas. The one Federal program that currently offers some of 
these services, EPA's Office of Sustainable Communities, is 
constantly oversubscribed. Each year, this program receives 
more than 100 requests for technical assistance, but it can 
only meet about 5 percent of them.
    In addition to providing resources and technical 
assistance, the Livable Communities Act establishes an 
Interagency Council on Sustainable Communities to formulate 
this Administration's effort to bring HUD, DOT, and EPA 
together to work on behalf of communities. For too long, these 
agencies have been working sometimes at cross purposes, sending 
mixed signals, and, in too many cases, issuing rules and 
regulations that prevent integration of housing, 
transportation, and land use planning. Codifying sustainable 
community partnerships will help the Federal Government to be a 
better partner on community livability and ensure a more 
efficient use of taxpayer dollars.
    It must be stressed that these programs and the assistance 
in the bill are entirely voluntary and flexible enough so that 
communities of all shapes and sizes can take advantage of them. 
I am impressed that it is supported by a broad collection of 
stakeholders, from the American Association of Retired People, 
to the American Public Health Association, to the Realtors, to 
the National Association of Counties.
    As the bill moves through committee, I would encourage you, 
however, to consider one small addition to the bill that will 
make it even more effective in improving community livability. 
I have introduced legislation, H.R. 5824, to provide home 
buyers and policymakers with information about the costs 
associated with the location of a home.
    The average American family spends over half its income on 
transportation and housing costs. For some, the cost of 
transportation is even greater than housing.
    As people move further from their jobs, and community 
development patterns require communities to drive for most of 
their outings, this has a powerful impact on how families spend 
their money.
    Living in a neighborhood closer to work, school, stores, 
and other services can significantly reduce the amount that 
families have to spend on transportation. However, 
transportation costs and savings are not currently taken into 
account in government affordability measures and standards, and 
information is not generally available to consumers looking to 
purchase or rent homes.
    This legislation could easily be incorporated into your 
Act. It would require HUD to develop a transportation 
affordability index to measure and disclose the transportation 
costs associated with the location of a home and make that 
information available to consumers and local governments.
    Using this information, consumers will be better able to 
price the trade-offs between housing and transportation costs 
and to measure potential savings associated with living closer 
to work, school, shopping, and transit.
    It will also make the cost of housing transparent for 
policymakers. Low-income communities can use this information 
to assist low-income families to live in areas with access to 
transit and services. This legislation is supported by a 
growing number of organizations including the Realtors, 
Reconnecting America, the National Housing Trust, and the 
National Low Income Housing Coalition.
    I would also like to support the efforts on behalf of my 
friend, Mr. Sires, the leader on livability for the State of 
New Jersey, in his legislation that he is about to reference, 
which I am proud to cosponsor.
    Finally, I would like to offer support for the proposal by 
the Association of State Floodplain Managers that would 
incorporate hazard risk reduction and resilience into the 
efforts to promote community sustainability. This committee has 
been working for far too long dealing with the consequences of 
the failure to do this as you deal with a seriously flawed 
flood insurance program.
    I think these would be valuable additions. Thank you for 
your courtesy. I look forward to working with you on this 
legislation.
    Mr. Perlmutter. We thank the gentleman.
    Now, the gentleman from New Jersey, Mr. Sires.

  STATEMENT OF THE HONORABLE ALBIO SIRES, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Sires. Thank you, Mr. Chairman, and Mrs. Capito. Thank 
you very much. I want to thank Chairman Frank and Ranking 
Member Bachus for holding this important hearing and my 
esteemed colleague's, Congressman Ed Perlmutter's legislation, 
H.R. 4690, the Livable Communities Act of 2010. As a former 
member of this committee, I appreciate the opportunity to sit 
down before you today.
    I also would like to thank Congressman Blumenauer for his 
testimony. I am a proud cosponsor of his legislation, H.R. 
5824, the Transportation and Housing Affordability Transparency 
Act, also called THAT Act, and I am eager to see this 
legislation move forward through this legislative process.
    There is a great need for livable communities legislation, 
and I applaud Congressman Perlmutter for introducing the 
Livable Communities Act and leading efforts here in the House.
    The Livable Communities Act represents an important tool to 
improve communication and coordination between Federal 
agencies. Specifically, this bill will create the Interagency 
Council of Sustainable Communities to bring agencies such as 
the Department of Housing and Urban Development, the Department 
of Transportation, the Environmental Protection Agency, and 
other agencies to the same table.
    Additionally, the Office of Sustainable Housing and 
Communities would be established to administer the Department 
of Housing and Urban Development's sustainability initiatives.
    Lastly, the Livable Communities Act will administer two 
grants program, the Challenge Grant Program and the 
Comprehensive Planning Grant Program, both of which partner 
with local communities. These competitive grants would allow 
communities to integrate sustainable development projects and 
incorporate public transportation and affordable housing.
    I also would like to take this opportunity to discuss my 
legislation, H.R. 3734, the Urban Revitalization and Livable 
Communities Act. Some of you may be familiar with this bill, 
since 21 cosponsors of the 131 total cosponsors sit on this 
committee. I thank all of those members for their support.
    As a former mayor, I know firsthand the benefits that parks 
bring to communities. During my three terms as mayor, I 
revitalized all the parks in West Newark, New Jersey, and saw 
our community benefit economically, environmentally, and 
socially. As a result, I introduced legislation to create four 
Federal grants programs to urban parks and recreation agencies 
that must be matched by local funds.
    There are four major grant programs with H.R. 3734. First, 
rehabilitation grants would be used for the purposes of 
remodeling and rebuilding recreation areas and facilities.
    Second, innovation grants would be used to cover costs of 
personnel, facilities, and equipment designed to demonstrate 
innovative and cost-effective recreation opportunities.
    Third, at-risk youth recreation grants would be either for 
new programs or continuing program support for existing 
programs that provide alternatives to at-risk youth.
    Lastly, there are recovery action program grants which will 
be used for the development of local parks and recreation 
programs, including citizens involvement and planning.
    Research shows that healthy and vibrant urban areas play 
key roles in improving the economy, health, and quality of life 
of our communities. Urban parks and recreation centers are 
instrumental in helping our Nation achieve important national 
goals, such as increasing exercise and improving health.
    The statistics speak for themselves. Our Nation's obesity 
rate is rising. Over the last 25 years, obesity among youth 
between ages 12 and 19 has tripled. Nearly one-third of 
Americans live in neighborhoods without sidewalks, and less 
than half of our country's children have a playground within 
walking distance of their homes.
    My legislation will ultimately create economic benefits 
through job creation, environmental benefits through 
improvement of green spaces, and health benefits by creating 
opportunities for Americans to become more active.
    In addition to having 131 cosponsors, I have the support of 
30 diverse organizations, including the National Recreation and 
Parks Association, the American Society of Landscapers and 
Architects, the United States Conference of Mayors, and the 
United States Soccer Foundation.
    Both Congressman Perlmutter's bill and my Livable 
Communities bill and Revitalization Act share the common thread 
of using grant programs to stimulate and create healthy, 
livable communities. The Livable Community Act is a bill that 
will benefit our local communities in our Nation by assisting 
local efforts to make affordable places to live and work.
    Just last month, the Senate marked up the Livable 
Communities Act, and I am looking forward to Congressman 
Perlmutter's version moving forward as well. I believe that my 
legislation complements the Livable Communities Act, and I look 
forward to working with this committee in the future.
    I applaud this committee's work on this important issue, 
and I thank you again for allowing me to testify. Thank you 
very much.
    [The prepared statement of Representative Sires can be 
found on page 22 of the appendix.]
    Mr. Perlmutter. I thank the gentleman. You were right on 5 
minutes, so congratulations.
    Any questions for either of these gentleman?
    Thank you.
    What we will do is yield 3 minutes to Mrs. Capito for her 
opening statement. You two can head to the Floor, if you like. 
We have about 6 minutes until the clock is closed. Then we will 
take a break, unless the gentleman from Kansas has an opening 
statement he would like to make before the votes?
    Mr. Moore of Kansas. No, I would rather wait.
    Mr. Perlmutter. I yield 3 minutes to Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman. I thank my fellow 
members, too, for their testimony.
    Thank you for holding the hearing today on promoting 
livable communities and smart growth in this legislation 
introduced by Congressman Perlmutter.
    I certainly support the goal of promoting livable 
communities and smart growth by coordinating services, 
transportation, educational opportunities, and affordable 
housing. I can't tell you how many initiatives we have had 
before this committee over the last several years, particularly 
in the housing area, to try to get better coordinating done 
cross-agency and within agencies.
    But I am concerned about a couple of the proposals in 4690, 
one of which would be is, it completely necessary to create a 
new office, like the Office of Sustainable Housing and 
Communities at HUD, and then a Federal Interagency Council on 
Sustainable Communities? I think the goals of both of these are 
good, but do we need to create another new bureaucracy?
    In the case of the interagency council, it would be headed 
by an executive director who would not be subject to any 
confirmation by the Senate but would have full discretion over 
the staffing and outsourcing decisions. Maybe these are issues 
that we can work on as this legislation moves forward.
    But from my perspective, this does bring about visions of 
some of the President's appointees, either czars or whatever 
you want to call them, new directors, who don't have oversight 
in their appointment process through the United States Senate.
    Also I have questions, there was a model cities program 
that was in effect in the 1960's that was found to be 
ineffective. What is the difference between that and the 
structure of this? We want to make sure we don't repeat issues 
that were found to be ineffective and not meet the lofty goals 
that I think are set forward in this legislation.
    The other issue, of course, is the issue of cost. We are in 
a high debt and deficit position right now, we all know this, 
and I think that we have to look long and hard before we create 
a grant program that would be $3.25 billion over 4 years.
    So, I would be interested in hearing from the panelists, 
and I hope I can come back. I do have to work a bill on the 
Floor, the flood insurance bill, to see what they have to say 
in developing sustainable communities and why this issue is 
something that we need to handle at the Federal level.
    I read some of the initial testimony. It seems like there 
is a lot at the local and State level in terms of trying to 
develop and provide the sustainable communities that we all 
seek.
    Thank you for being here, and thank you for the 
opportunity.
    Mr. Perlmutter. Thank you, and this panel is dismissed.
    What I would like to do is recess. We have six votes, so it 
will probably take between 45 minutes and an hour. We will 
reconvene at 3:45. So, with that, we will stand in recess. The 
second panel will be up next.
    [recess]
    Mr. Perlmutter. The committee will now come back to order, 
if the panelists would take their seats, please.
    I thank the panel for waiting through that delay. We had 
six votes, and I actually called the time on it pretty closely. 
So I appreciate your attendance here today.
    I think the gentleman from Texas has an opening statement 
he would like to share. If that is the case, Mr. Hensarling, I 
would yield to the gentleman.
    Mr. Hensarling. Thank you, Mr. Chairman.
    Mr. Perlmutter. How much time do you need, 3 minutes?
    Mr. Hensarling. The other opening statements, forgive me?
    Mr. Perlmutter. The only opening statement so far was Mrs. 
Capito, and that was for 3 minutes.
    Mr. Hensarling. I will try not to hold up progress, Mr. 
Chairman. Why don't you give me 3 minutes?
    Mr. Perlmutter. Sure. The gentleman is recognized for 3 
minutes.
    Mr. Hensarling. Thank you, Mr. Chairman. Again, Mr. 
Chairman, I think you know that I have a lot of respect for you 
personally, and I know you are a very engaged and diligent 
member of this particular committee. I have no doubt that this 
is a very sincere effort on your part to achieve worthy goals.
    But I must admit after earlier today, just seeing one more 
new Federal program that costs $30 billion, one more 
opportunity to borrow money from the Chinese and send the bill 
to our children and our grandchildren, when I think about the 
largest national debt in the history of our Nation, red ink as 
far as the eye can see, when I think about the fact that we are 
coming off of 2 years in a row of trillion dollar-plus 
deficits, I think to myself, at what point does the madness 
end? At what point do we finally say enough is enough? The 
American people want to know what part of ``broke'' does this 
Congress not understand?
    So I have no doubt that very worthy things can be done with 
the $3 billion or $4 billion authorization. And I understand by 
the standards of this place, that might be not even a rounding 
error. To the American people, it is real money, particularly 
at a time when we are drowning in debt, when the torch of 
Liberty is being mortgaged.
    I know this is about livable communities, but I have to 
tell you, in my neighborhood, in Dallas, Texas, where two of my 
neighbors have lost their jobs, to me, a livable community is 
where my neighbor has a job.
    So I am trying to figure out how the expenditure of an 
additional $4 billion, creating a new government program, a new 
government interagency council, a new czar, a new agency 
ostensibly to help micromanage our community infrastructure, 
how is that going to get my neighbors employed in Dallas, 
Texas? Quite frankly, it is the debt that is helping create 
greater uncertainty, that is causing businesses not to create 
jobs.
    The Chairman of the Federal Reserve sat before us at that 
very table and told us it was important to put a plan on the 
table today to solve the spending crisis, that it would have a 
beneficial impact on job creation. And job creation ought to be 
job one, and adding even this amount to the Federal debt works 
against job creation.
    So with all due respect, I cannot support this Act.
    I yield back the balance of my time.
    Mr. Perlmutter. The gentleman yields back.
    I will just take a moment for a brief opening statement, 
and then I don't know if the gentleman from New Jersey or the 
gentlewoman from Kansas has an opening statement, but they 
certainly can share if they wish.
    I appreciate the comments of my friend from Texas, but what 
we are here today to really discuss is H.R. 4690, the Livable 
Communities Act of 2010. Probably the difference of opinion is 
expenditure versus investment.
    In my opinion, the effort here is to invest in the future 
of this country, which ultimately will reap rewards for the 
people who live in the communities, as well as the country as a 
whole, and that it is an investment that will save people money 
in their daily lives, as well as provide well-planned, well-
structured communities where business can thrive.
    This bill is companion legislation to Chairman Dodd's 
Livable Communities Act which was favorably reported out by the 
Senate Banking Committee in August. Since its introduction, 
this bill has generated lots of interest in local communities 
across the country. The Livable Communities Act is an example 
of legislation crafted with comprehensive input.
    At this time, I ask unanimous consent that the letters of 
support be entered into the hearing record. These letters show 
livable communities have a variety of support, including the 
U.S. Green Building Council, the National League of Cities, 
Enterprise Community Partners, the National Association of 
Realtors, and many, many more, both nationwide and at the local 
level. Without objection, they will be made a part of the 
record.
    This legislation is drafted to be incentive-based, 
providing local communities the tools and resources necessary 
to develop and implement comprehensive regional plans. Liveable 
communities are about creating better and more affordable 
places to live, work, and play.
    In addition, this legislation will eliminate current 
barriers by creating an interagency council for HUD, DOT, EPA, 
and other Federal agencies to coordinate. It will also codify 
the Office of Sustainable Housing and Communities within the 
Housing and Urban Development Department.
    Liveable communities provide benefits to communities across 
the country, including my congressional district. My mayor, Bob 
Murphy, is here from Lakewood, Colorado, today to testify about 
the impact this type of legislation would have on Lakewood, as 
well as the rest of metropolitan Denver.
    Colorado is already beginning cooperative projects that fit 
within the goals of this bill. H.R. 4690 will enhance the 
process, capabilities, and efficiency of executing these 
collaborative projects and eliminate barriers to Federal 
agencies working together to provide the necessary resources 
and technical assistance.
    For these reasons, I introduced the Livable Communities Act 
of 2010, and I look forward to working with members of the 
committee and other committees of jurisdiction to move this 
important legislation forward.
    Does the gentleman from New Jersey have any opening 
remarks?
    Thank you.
    With that, the Chair will now take testimony from the 
second panel. The Chair now recognizes Mayor Bob Murphy from 
Lakewood, Colorado, a friend and a neighbor of mine and an 
outstanding mayor, to speak for 5 minutes.
    The gentleman is recognized for 5 minutes.

STATEMENT OF THE HONORABLE BOB MURPHY, MAYOR, CITY OF LAKEWOOD, 
                            COLORADO

    Mr. Murphy. Thank you. I would like to thank Chairman 
Frank, Ranking Member Bachus, and, of course, Representative 
Perlmutter, our terrific Congressman from Colorado's Seventh 
District, for this opportunity to appear before you today to 
talk about the importance of the Livable Communities Act to 
towns and cities across the Nation.
    As you heard, I am the mayor of Lakewood, Colorado, a first 
tier suburb of 150,000 adjacent to the west side of Denver. I 
also chair the Metro Mayors Caucus, a unique organization of 39 
communities that collaborates on issues of transportation, 
economic development, sustainability, and health and wellness.
    One of our best known examples of collaboration even here 
inside the Beltway is the manner in which we coalesced around 
the 2004 fast tracks ballot initiative. This voter-approved 
measure launched the Nation's current transit construction 
project, 122 miles of new rail, 54 new transit stations, and 18 
miles of BRT.
    The first line, the West Corridor, is currently under 
construction through Lakewood, connecting the major employment 
centers of downtown Denver, the Denver Federal Center, and the 
Jefferson County Government Center in Golden. The West 
Corridor, indeed every transit corridor, presents unique 
opportunities for community building and job creation, but 
along with it comes daunting challenges.
    Simply put, transit and the communities we designed around 
the new stations have the potential to create equal access to 
opportunity for everyone, including enhanced access to 
employment and educational opportunities, more housing choices, 
improved access to medical care and healthy food options, and 
better access to regional amenities.
    These opportunities expand to benefit our regional 
economies and our environment by: reducing auto trips and 
greenhouse gas emissions, thus bettering air quality; improving 
public health; lowering health care costs because of more 
walking, bicycling, and exercise; creating jobs through design, 
building, and operation of infrastructure, housing, and 
commercial centers; lowering the public subsidy of transit 
through increased ridership; and creating a green dividend for 
regional economies as savings on household transportation costs 
become discretionary income for food, clothing, and education.
    The average American household spends over 50 percent of 
their budget on housing and transportation. This burden falls 
even heavier on low- to moderate-income households. These 
households use transit more than those with higher income, and 
as we build our communities near transit, they stand to benefit 
the most from transportation cost savings, a wider variety of 
housing choices, and better accessibility to work, schools, 
daycare, and recreational options, all resulting in more 
opportunity, productivity, and time with family.
    Affordable housing stimulates the local economy. A 2010 
homebuilders study in Denver measured the 1-year estimated 
economic impact of building 615 new low-income housing tax 
credit units and found $57 million injected into the economy, 
$5 million in additional revenue to local governments, and 732 
new local jobs.
    Opportunities abound to plan and build livable communities 
along transportation corridors and rail stations, but 
significant barriers remain. The areas surrounding future fast 
track stations in our cities and suburbs are encumbered by 
aging infrastructure, Brownfield sites, lack of bike and 
sidewalk connectivity, absence of open space, and fragmentation 
of parcel ownership. The costs for remediation are often beyond 
the scope of local governments, even in partnership with the 
private sector.
    Historically, existing Federal funding has been focused on 
specific aspects of the metropolitan landscape like 
transportation, housing, and environmental quality, rather than 
on comprehensively what it takes to build resilient communities 
that will sustain for generations.
    Many programs of DOT, HUD, and EPA have had a high level 
focus on the same outcome, better communities, but have been 
hamstrung by different regulatory requirements and embedded 
organizational cultures.
    The 2009 formation of the Office for Sustainable Housing in 
Communities inspired the Denver region to, once again, take a 
collaborative approach to meeting our challenges. The West 
Corridor formed a unique partnership involving our cities, 
housing authorities, and transportation authorities to 
comprehensively plan for station area land use, affordable 
housing, infrastructure needs, and future economic development 
along the corridor.
    Our Denver Regional Council of Governments, 55 members, are 
cooperating to update our Metrovision plan with a new centers 
and corridor strategy aligned with the new urban centers 
developing along our new transit corridors. Through DRCOG, the 
Denver region applied for the first HUD sustainability planning 
grant. Many regions around the country did the same thing, and 
that is my exact point. This is already working.
    Applicants, even if unsuccessful, have had to forge the 
precise type of regional coalitions that will be vital to 
provide services in a future with restrained resources.
    It is for this reason I want to commend the groundbreaking 
partnership that has already occurred between these three 
agencies. Secretaries Donovan and LaHood and Administrator 
Jackson should be commended for their foresight in linking 
these programs, policies, and funding. And a special thanks, 
too, by the way, to Shelly Poticha, Director for the Office of 
Sustainable Housing and Communities, for her advice, 
inspiration, and on-the-ground implementation of these 
policies. Together, we will all build better communities.
    Thank you for the opportunity.
    [The prepared statement of Mayor Murphy can be found on 
page 51 of the appendix.]
    Mr. Perlmutter. Thank you.
    Next, we have Andriana Abariotes from Minnesota. I am sorry 
that Mr. Ellison is not here to introduce you today, but you 
are recognized for 5 minutes.

   STATEMENT OF ANDRIANA ABARIOTES, EXECUTIVE DIRECTOR, TWIN 
       CITIES LOCAL INITIATIVE SUPPORT CORPORATION (LISC)

    Ms. Abariotes. Thank you, Mr. Chairman.
    Good afternoon, and I would like to also offer my thanks to 
Chairman Frank, Ranking Member Bachus, and the members of the 
committee. I am pleased to be here today to speak about the 
Livable Communities Act of 2010.
    My name is Andriana Abariotes. I am the executive director 
of the Twin Cities Office of the Local Initiative Support 
Corporation, or LISC, which includes the Minneapolis and St. 
Paul metropolitan region.
    Congressman Ellison certainly has been supportive of our 
work and has been a true leader in our community. I would also 
like to thank you, Congressman Perlmutter, for your leadership 
on this important bill.
    For almost 3 decades, LISC has been connecting community 
developers with resources to revitalize neighborhoods and 
improve quality of life, a strategy we call building 
sustainable communities. Historically, LISC has invested over 
$9.6 billion in communities across the country. In the Twin 
Cities, this has translated into over $370 million in 
investments, resulting in over 9,000 affordable homes and 1.3 
million square feet of retail, community and educational space.
    I am here today to talk about the relationship between 
community development activities and the Livable Communities 
Act. We applaud the coordination promoted by the Livable 
Communities Act, which has the potential to combine community-
based planning with regional planning efforts. In the Twin 
Cities, we have seen this integration take place with a great 
deal of success. I would like to provide a specific example.
    The central corridor is a new 11-mile light rail corridor 
and will be the second line in the Twin Cities regional transit 
system, that when complete, connects the downtown of 
Minneapolis to the University of Minnesota through the capital 
campus into downtown St. Paul. This new corridor will run 
through the heart of one of St. Paul's most historic African-
American communities, the Rondo community.
    When planning began for the light rail, there was a great 
deal of apprehension and mistrust by residents and community 
leaders due to the checkered history of transportation in this 
particular community. Forty years ago, Interstate 94 was built 
on top of Rondo Avenue, cutting right through the heart of the 
neighborhood and displacing residents and a whole range of 
community institutions, including housing, community 
businesses, and services.
    LISC has partnered in the central corridor with the City of 
St. Paul and 10 community-based organizations to engage 
community leaders and residents in connecting a broader vision 
for the corridor with housing preservation, small business 
support, neighborhood jobs, and minority contracting and energy 
improvements.
    LISC's work in this area is not unique to the Twin Cities. 
Sixteen of LISC's 28 local offices are participating in 
regional partnerships that have applied for HUD's sustainable 
community grants program, including Boston, where LISC is 
working with four community-based community development 
corporations, or CDCs, to organize residents in a planning 
vision for new developments on vacant, underutilized land along 
the region's Fairmont commuter rail line, which is in 
Congressman Capuano's district.
    We know that community-based nonprofit CDCs provide vital 
services to residents in low-income communities, particularly 
communities of color. In order to ensure that input from 
nonprofits is considered early in the planning process and 
before critical decisions are made, they should be included in 
the regional planning processes at the time of application 
rather than one year after the grant is awarded, as required by 
the Act. The benefit will be a much more robust community 
involvement component which could mitigate future opposition by 
gaining community buy-ins early in the process.
    It is our hope that as the bill moves forward through 
Congress, it retains the provisions that seek to promote 
integration of low-income and affordable housing planning in 
the Act's grant programs.
    The cost of acquisition of land for transit-oriented 
development is often the barrier to keeping housing units 
affordable, and this planning early in the process can help 
affordable housing developers make development decisions before 
land prices escalate beyond their reach.
    It is critically important that low-income and moderate-
income neighborhoods, rural communities, and cities that have 
experienced significant population loss have equal access to 
the type of planning and development opportunities promoted in 
the Livable Communities Act. We believe that this can be 
accomplished through the equitable inclusion of communities of 
all races, ethnicities, ages and income levels, a setaside of 
15 percent of the grant dollars for rural communities, and the 
creation of community regeneration planning grant programs for 
communities that have lost population, both of which were 
passed in the Senate Banking Committee's version of this Act.
    This concludes my testimony, and I would be happy to answer 
any question you may have. Thank you again for the opportunity 
to speak with you today.
    [The prepared statement of Ms. Abariotes can be found on 
page 24 of the appendix.]
    Mr. Perlmutter. And thank you. We appreciate your 
testimony.
    Now, we will hear from Julia Gouge, president of the Board 
of County Commissioners in Carroll County, Maryland, so she is 
our neighbor.

    STATEMENT OF JULIA W. GOUGE, PRESIDENT, BOARD OF COUNTY 
            COMMISSIONERS, CARROLL COUNTY, MARYLAND

    Ms. Gouge. Good afternoon, Chairman Frank, Ranking Member 
Bachus, and members of the Financial Services Committee, and to 
you, Representative Perlmutter, we appreciate very much your 
introducing this bill.
    I am Julia Gouge, president of the Carroll County Board of 
Commissioners, member of the National Association of Counties, 
NACo Board of Directors, Environment, Energy and Lands Use 
Steering Committee, and the Rural Action Caucus. I would like 
to thank you for the opportunity to testify today on this 
Livable Communities Act.
    NACo is the only national organization representing 
America's 3,068 counties, and we support the Livable 
Communities Act which provides incentive grants to local areas 
for regional planning around housing, transportation, the 
environment, energy, land use, and health initiatives. NACo has 
passed a resolution supporting the Livable Communities Act.
    NACo has worked to support members in achieving sustainable 
development for over 15 years through assistance on issues 
including smart growth and planning, economic development, and 
business retention. Priorities now include clean energy 
development and disaster recovery.
    In 2007, NACo began the Green Government Initiative, 
providing comprehensive resources for local governments on all 
things green. NACo will soon release a survey on 2010 
sustainability efforts which captures close to 600 counties' 
differing levels of sustainability.
    Planning for sustainability communities is, by nature, a 
regional effort. Whether individually, with neighboring 
jurisdictions, or through regional councils, counties have the 
primary role in planning and economic development decisions 
impacting and determining growth, development, and livability.
    Many rural and mid-sized counties would like to begin 
development and planning, but lack the resources to do so. This 
legislation will be effective because it meets communities 
where they are, at the planning and implementation stage.
    Carroll County, Maryland, has a population of 175,000. We 
have created three lead-certified green buildings oriented for 
site optimum lighting, storm water management, geothermal 
systems, and the use of high recycled content materials. To 
reduce our carbon footprint, we invested in the purchase of 
hybrid cars for our fleet, as well as hybrid vans for our 
transportation system.
    Carroll County participates in the Energy Management 
Initiative provided through the Baltimore Metropolitan Council, 
and in Fiscal Year 2009, Carroll County estimated an 
electricity savings of over $8900,000.
    To preserve our rural history, we implemented an 
installment purchase agreement program for farm preservation. 
This allows us to purchase development rights by leveraging our 
money so more land can be purchased at today's prices. To date, 
we have placed over 60,000 acres in permanent preservation.
    The U.S. Department of Housing and Urban Development, HUD, 
has created the Office of Sustainable Housing and Communities. 
This legislation would formally establish this office and the 
Interagency Council, and we appreciate HUD taking the lead with 
EPA and the Department of Transportation to break down the 
silos within the Federal Government. HUD also has grant money 
available for Fiscal Year 2010 on sustainable planning, and 
Carroll County has utilized block grants from HUD extensively 
over the past 30 years.
    In addition to Section 8 funding, we have been awarded 
Community Development Block Grants from the Maryland Department 
of Housing and Community Development continuum of care for the 
homeless. We have also received home funding which we use for 
transitional housing programs and rental assistance.
    NACo continues to believe sustainability should be 
voluntary and encouraged through a Federal grant program, 
rewarding communities undertaking sustainable programs. We do 
not believe sustainability should be a condition for receiving 
housing, transportation, and other traditional sources of 
Federal funding. What we do support is having a setaside for a 
subcategory of rural areas, such as the one included in the 
Senate committee-passed bill.
    Our rural communities represent the majority of the 
Nation's land mass. Of the over 3,068 counties, over 90 percent 
have populations under 200,000, with many under 100,000 or 
50,000. When Federal funding is involved, efforts at integrated 
local and regional planning are often hindered by the States 
when funds are not granted directly to local governments, and 
NACo appreciates that the bill allows local entities to receive 
direct funding.
    I would like to thank you for this opportunity to testify, 
and I would be happy to answer any questions. Thank you.
    [The prepared statement of Ms. Gouge can be found on page 
30 of the appendix.]
    Mr. Perlmutter. Thank you very much for your testimony.
    Now, the committee will recognize Mr. Bruce Knight from 
Champaign, Illinois, to testify for 5 minutes. You are 
recognized, sir.

   STATEMENT OF BRUCE A. KNIGHT, PLANNING DIRECTOR, CITY OF 
     CHAMPAIGN, ILLINOIS, AND PRESIDENT, AMERICAN PLANNING 
                          ASSOCIATION

    Mr. Knight. Good afternoon, and thank you, Chairman Frank, 
Ranking Member Bachus, and the distinguished members of the 
committee for holding this important hearing, and I also thank 
you, Congressman Perlmutter, for your leadership in this issue, 
and congratulations on being APA's Legislator of the Year.
    I am Bruce Knight, planning director for the City of 
Champaign, Illinois, and president of the American Planning 
Association. At a time when planners are hard at work laying 
the foundation for economic recovery and on behalf of our 
40,000-plus members, I am very pleased to be able to testify in 
support of legislation that offers vital resources for good 
planning, breaks down barriers to efficient infrastructure 
investment, and advances local quality of life.
    The Livable Communities Act provides critical support for 
good planning. There are, I believe, six innovations and 
benefits that make the bill an important step forward: it 
promotes integrated planning and eliminates barriers to 
regional cooperation; it recognizes the importance of 
comprehensive planning; it is driven by data and performance 
indicators; it supports both planning and plan implementation; 
and it provides particular benefits for communities hit hard by 
recession.
    I also want to underscore the fact that the bill is not 
top-down. It is incentive-based, and the plans are driven by 
engagement, participation, and vision of local residents.
    Much of this committee's attention has been focused on 
housing and the foreclosure crisis. This bill provides another 
opportunity to help places struggling to restore prosperity and 
offers desperately needed tools to help communities. Virtually 
every HUD program would be more effective and efficient as a 
result of the plans and the tools in this bill.
    The planning in this legislation supports your work 
promoting greater energy and location efficiency in housing 
policy. It is easy to focus on individual buildings and the 
effort to green neighborhoods, but it is critical that the 
issues of job access, travel options, and housing choices also 
be considered.
    This committee took bold bipartisan action earlier in the 
year in approving the Green Act. This bill takes those same 
concerns to a broader scale.
    The bill advances integration and interagency coordination. 
APA applauds the efforts of HUD, DOT, and EPA in forming an 
interagency partnership on sustainable communities. This 
important collaboration is long overdue.
    The agencies have already taken steps to promote closer 
integration, but passage of this bill would take that 
integration further by establishing a common planning process 
that is comprehensive and coordinates with capital investments. 
The legislation would ensure that these efforts are not a 
momentary occurrence. The bill encourages regional cooperation.
    True regionalism is notoriously difficult to achieve. Our 
system of multiple, sometimes overlapping units of local 
government, make regional collaboration hard. That said, many 
of our most important challenges are regional in nature, 
including housing affordability, transportation options, 
community development, and watershed protection.
    The bill brings together municipalities in the region and 
key stakeholders from the private and nonprofit sectors. The 
plans that emerge from this process will support Federal 
livability principles, and guide infrastructure investment, 
while informing local plans and codes that are vital to the 
coordination and effectiveness.
    To achieve the outcomes that citizens envision in the 
planning process, plans must be implemented. The legislation 
also provides critical support for these activities. 
Communities can choose to apply for support to move plans to 
implementation to those outcomes that residents wants and need.
    In my own city, we are seeking initial funding to support a 
new green code that will help implement key sustainability 
components of our comprehensive plan.
    In my role as president of the American Planning 
Association, I have spent much of the last year and a half 
traveling to communities across the country. I have seen 
firsthand the serious economic challenges confronting many 
neighborhoods.
    Planners in places large and small are struggling to cope 
with tough problems. All too often, I have also seen serious 
cuts in planning in these same communities. This disinvestment 
comes at the worst possible moment.
    The places that are investing in good planning will be the 
placing best positioned for recovery. After all, the planning 
process provides a clear strategy to efficiently achieve 
outcomes, good choices, choices where we live and work and how 
we travel, safe neighborhoods, affordable housing, and a clean 
environment, outcomes which residents value and demand.
    I firmly believe that now is the time to invest in 
planning, and that those communities that do so will recover 
from the Great Recession first. That is because they are the 
communities that will be prepared to reinvent themselves and 
take advantage of new opportunities.
    This is only likely to happen if policymakers are making 
decisions also guided by smarter, greener plans leading to 
development regulations designed to promote greener, more 
sustainable communities. This is why the Livable Communities 
Act is so important and invests in plans that lay the 
foundation for economic vitality.
    I thank you for holding this important hearing and the 
opportunity to testify today. I encourage you to move forward 
with this legislation, and I am happy to respond to any 
questions. Thank you very much.
    [The prepared statement of Mr. Knight can be found on page 
39 of the appendix.]
    Mr. Perlmutter. Thank you, Mr. Knight.
    I appreciate the testimony of this panel.
    I am just going to make a couple of comments. I have a 
couple of questions, then I will yield to Mrs. Capito for her 
questions. Since there are only two of us here, we won't waste 
a lot of time, but I know we do have some questions and 
comments.
    What I would like to comment on are both concerns that Mrs. 
Capito raised as well as Mr. Hensarling in the need to make 
sure that whatever structure the organization has put together, 
and we have certainly the structure in the livable communities, 
but to the degree there are ways to utilize metropolitan 
planning organizations or use the same terminology so that 
there is no confusion that it is a system that we know can get 
the grants to the local governments so that the local 
governments can then work together in a regional and 
cooperative basis. That is what I want to see. So I certainly 
am willing to work with you all on that, in that regard.
    With respect to the grants themselves, to the degree that 
local governments can put them to good use to plan their 
communities for decades to come, I think we are putting money 
to good purpose.
    I would say to my friend from Lakewood, Colorado, recently, 
he and I had an instance of working on a project which was a 
former Remington arms plant that was created by the United 
States of America for World War II purposes, and at its height 
was producing 6 million rounds of bullets a day.
    The City of Lakewood, working in conjunction with the 
Federal Government and with the regional transportation 
district with a variety of organizations cleaned up what was 
the shooting range for that property, added light rail, has a 
hospital, will have affordable housing, will have a whole 
variety of things, to take what was a mess and really make it a 
livable, sustainable community.
    It is that goal that I think that I know I seek, something 
like that, for other towns and communities around the country. 
Obviously, it is happening. But these grants would allow those 
communities who for whatever reason don't have the opportunity 
to do regional or really forward-thinking kinds of plans the 
opportunity to integrate transit, housing, cleanups, 
brownfields, energy issues.
    So, I would ask you, Ms. Gouge, just a couple of questions. 
You said in Carroll County you have been able to take some 
grants and work in a regional way with the City of Baltimore 
and others, and through your savings, you have come up with 
some 60,000 acres of preservation? How has that worked? After 
that, I will yield to Mrs. Capito for her questions.
    Ms. Gouge. We have been working on farm preservation for a 
number of years. As money has become more scarce, and farmland 
has become more expensive, I gave a challenge a couple of years 
ago to our staff to come up with a plan. That plan uses zero-
based bonding. We have worked with our bond counsel and with 
other attorneys to have a plan so that we can go to the farmers 
and offer them the money. But we are leveraging our money, 
through the zero-based bonds.
    Consequently, it is 40 percent of the value of the land at 
that time. We are offering that to the people now, so we are 
getting more farm for our dollar. We are actually able to give 
them tax-free money on those bonds for the time that they have 
that.
    We have set it up for 20 years, so the bond money will be 
there and the interest will be there for those folks. That is 
the reason it has become so important.
    Mr. Perlmutter. Thank you.
    Mrs. Capito has to go back to the Floor, so she won't be 
asking any questions. That is good for all of us.
    What I would like to do now is to yield to Mr. Al Green 
from Texas. I know you just are sitting down and you may want 
to collect your thoughts, but generally he will get right to 
the point.
    So, Mr. Green?
    Mr. Green. Thank you, Mr. Chairman, and I thank the 
witnesses for appearing.
    Mr. Chairman, I apologize for my late arrival. I am also a 
member of the Homeland Security Committee, and we had a hearing 
that was taking place that required my attention. So, my 
apologies to all.
    But I do want to talk to Ms. Abariotes, and I trust I will 
pronounce your name correctly, Ms. Abariotes. Is that close?
    Ma'am, you referenced, I believe, an 11-mile rail line you 
have been working on. We have a similar circumstance in 
Houston, Texas. It is 8.27 miles, and it connects the medical 
center with an urban area.
    I am interested in your rail line because it seems quite 
similar to what we are doing, and I would like to get more 
intelligence on how you are perfecting this project, because we 
are in our infancy and it seems you are much more along the way 
than we are. So I welcome any comments that you can share with 
me.
    Ms. Abariotes. Thank you for the question, Congressman 
Green. I would also probably turn to my colleagues here on the 
panel, because they may have other experiences in communities 
where they are far ahead of us, and I am thinking of the Denver 
area as well.
    In the City of St. Paul, and really between the two cities 
of Minneapolis and St. Paul, the 11-mile stretch is actually a 
second line of a transit system. So there were a greet deal of 
learnings in the first line, which is the Hiawatha corridor 
that links the Minneapolis downtown business district with the 
Mall of America and the airport. When the initial planning was 
done, it was much more important to get the line built than to 
think about the development opportunities around it. So the 
community has been playing catch-up.
    In the case of building up the new central corridor line, I 
think the opportunity to do things differently, to engage 
residents and small business owners, institutions that align 
what will be the new line, was the opportunity, and it really 
sparked both the creativity on the part of the city, both 
cities, the cities of St. Paul and Minneapolis, but also to 
engage the philanthropic community, to create a learning forum 
called the Central Corridor Funders Collaborative.
    They were able to raise, I believe they have raised $5 
million collectively toward the goal of raising $20 million to 
put towards both planning around station areas and future rail 
transit line opportunities in the whole region.
    So I think it is both sparking new partnerships on the 
ground between residents and different community institutions 
where there might be transit stations, sparking the ability to 
learn more about how to do transit-oriented development, and 
how to do deep community engagement with residents in new and 
different ways. And I think the opportunity, like the Livable 
Communities Act, would be to be able to leverage those 
additional resources that would be beyond the resources 
outlined in the bill that would include both private and 
philanthropic resources and create more synergy and more 
attention.
    Mr. Green. Thank you. I would welcome any additional 
comments. Yes, sir?
    Mr. Knight. I would just comment that I think this is a 
classic example of how the separate planning requirements of 
Federal funding areas has led to a disconnect between issues of 
transportation and housing and job placement, and that is what 
the Livable Communities Act is all about.
    If we can, instead of having these separate planning 
requirements, bring them together, look at these issues 
comprehensively and think about how transit operates in 
conjunction with where housing is located, where jobs are 
located, how that impacts the environment, how we can reduce 
housing costs because people now can not only live in 
affordable housing, but they have affordable transportation 
choices to their places of destination, that is the key 
difference that we believe this Livable Communities Act will 
bring by again having communities think comprehensively and 
regionally about these solutions, rather than thinking about 
them independent of each other.
    Mr. Murphy. I would just add, sir, that in Denver, we have 
a situation that may or may not be similar to yours. We have a 
12-plus mile line going out from our core city out to the 
western suburbs, and it has caused us, of course, to work 
together in collaboration, the representatives from each city, 
the housing authority is a very important component to site 
affordable housing at the appropriate station areas, and the 
transportation district, and the General Services 
Administration which runs the Denver Federal Center. So we have 
been working for over a year and put together a plan that 
coordinates the land use, not just at each station, but 
hopefully along the entire corridor.
    One of the things you find as you get into this, it is not 
easy, but in a citizen-involved process, you can plan for what 
you think is the appropriate land use, then you evolve into how 
do you create a sense of place at each of these stations, how 
do you incentivize people to get off the line at each of the 
stations? And the result of all of that is more and more 
regional collaboration and more and more citizen buy-in.
    Mr. Green. Thank you, Mr. Chairman. I yield back.
    Mr. Perlmutter. I appreciate, obviously, we appreciate the 
testimony of the panel today. This is a subject that I think 
really needs the attention of the Congress. We are happy that 
the Senate has acted on its bill and will hopefully bring it to 
the Floor of the Senate. This is something that I believe, 
contrary to what Mr. Hensarling had to say, is really an 
investment. And this country needs to make investments. We 
have, over time, deferred a lot of investments, whether it is 
in our transportation system, our housing, and certainly we 
need to be building our jobs, wherever they may be, whether it 
is Lakewood or Minneapolis or Baltimore or Champaign. So we 
appreciate your testimony. Obviously, you all are experts in 
this arena, and you can be assured you will be consulted with 
as we go forward trying to make a package here that really 
works for local governments as well as works at the Federal 
level with these agencies talking to one another and not 
operating in isolation.
    So, with that, I would like to ask unanimous consent to 
insert statements for the record from the National Association 
of Home Builders and the National Center for Healthy Housing. 
And without hearing any objection from Mr. Green, they will be 
inserted into the record.
    The Chair notes that some members may have additional 
questions for this panel which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 30 days for members to submit written questions to these 
witnesses and to place their responses in the record. With 
that, this hearing is adjourned and the panel is dismissed.
    [Whereupon, at 4:30 p.m., the hearing was adjourned.]


                            A P P E N D I X



                           September 23, 2010


[GRAPHIC] [TIFF OMITTED] T2682.001

[GRAPHIC] [TIFF OMITTED] T2682.002

[GRAPHIC] [TIFF OMITTED] T2682.003

[GRAPHIC] [TIFF OMITTED] T2682.004

[GRAPHIC] [TIFF OMITTED] T2682.005

[GRAPHIC] [TIFF OMITTED] T2682.006

[GRAPHIC] [TIFF OMITTED] T2682.007

[GRAPHIC] [TIFF OMITTED] T2682.008

[GRAPHIC] [TIFF OMITTED] T2682.009

[GRAPHIC] [TIFF OMITTED] T2682.010

[GRAPHIC] [TIFF OMITTED] T2682.011

[GRAPHIC] [TIFF OMITTED] T2682.012

[GRAPHIC] [TIFF OMITTED] T2682.013

[GRAPHIC] [TIFF OMITTED] T2682.014

[GRAPHIC] [TIFF OMITTED] T2682.015

[GRAPHIC] [TIFF OMITTED] T2682.016

[GRAPHIC] [TIFF OMITTED] T2682.017

[GRAPHIC] [TIFF OMITTED] T2682.018

[GRAPHIC] [TIFF OMITTED] T2682.019

[GRAPHIC] [TIFF OMITTED] T2682.020

[GRAPHIC] [TIFF OMITTED] T2682.021

[GRAPHIC] [TIFF OMITTED] T2682.022

[GRAPHIC] [TIFF OMITTED] T2682.023

[GRAPHIC] [TIFF OMITTED] T2682.024

[GRAPHIC] [TIFF OMITTED] T2682.025

[GRAPHIC] [TIFF OMITTED] T2682.026

[GRAPHIC] [TIFF OMITTED] T2682.027

[GRAPHIC] [TIFF OMITTED] T2682.028

[GRAPHIC] [TIFF OMITTED] T2682.029

[GRAPHIC] [TIFF OMITTED] T2682.030

[GRAPHIC] [TIFF OMITTED] T2682.031

[GRAPHIC] [TIFF OMITTED] T2682.032

[GRAPHIC] [TIFF OMITTED] T2682.035

[GRAPHIC] [TIFF OMITTED] T2682.036

[GRAPHIC] [TIFF OMITTED] T2682.037

[GRAPHIC] [TIFF OMITTED] T2682.038

[GRAPHIC] [TIFF OMITTED] T2682.039

[GRAPHIC] [TIFF OMITTED] T2682.040

[GRAPHIC] [TIFF OMITTED] T2682.041

[GRAPHIC] [TIFF OMITTED] T2682.042

[GRAPHIC] [TIFF OMITTED] T2682.043

[GRAPHIC] [TIFF OMITTED] T2682.044


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
